U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Michael Jackson v. Don Hudson, No. 20-911
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 31,
2020. The government’s response is now due, after two extensions, on April 9, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 10, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0911
JACKSON, MICHAEL
DON HUDSON, WARDEN

KEVIN K. RUSSELL
GOLDSTEIN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
KR@GOLDSTEINRUSSELL.COM

